        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Cyber Security Risk Management
Practice at the Southeastern,
Southwestern, and Western Area
Power Administrations




DOE/IG-0805                      November 2008
                                 Department of Energy
                                     Washington, DC 2 0 5 8 5

                                     November 2 0 , 2008


MEMORANDUM FOR

FROM:
                          lnspector General

SUBJECT:                  Audit Report on "Cyber Security Risk Management Practices at
                          the Southeastern, Southwestern, and Western Area Power
                          Administrations"

BACKGROUND

The Southeastern, Southwestern, and Western Area Power Administrations provide
electrical power to customers in 29 states. To support this critical function, the Power
Marketing Administrations (PMAs) utilize infornlation systems to conduct various
activities, including financial management, marketing, and transferring wholesale
electrical power across the Nation's electrical grids. In particular, Southwestern and
Western operate supervisory control and data acquisition (SCADA) systems - systems
critical to controlling the flow of electricity to the power grid. The power grids are part
of the U.S. critical infrastructure. Interruptions in these control systems for an extended
period could adversely impact the PMAs' customers.

To help identify and manage risk, all Federal entities are required to certify and accredit
(C&A) their information systems. This formal process is designed to ensure that
information systems are secure prior to beginning operation and that they remain so
throughout their lifecycle. The C&A process includes specific steps to recognize and
address risks, determine whether system security controls are in place and operating
effectively, and ensure that changes to systems are adequately tested and approved. In
light of the growing threat to the security of information systems supporting critical
infrastructure, we initiated this audit to determine whether the cyber security programs at
Southwest, Southeastern, and Western adequately protected operational data and
information systems.

RESULTS
-  ---     OF AUDIT

Southeastern, Southwestern, and Western had taken steps to strengthen their cybcr
security programs. Our review, however, identitied critical C&A process weaknesses
that could, if not adequately addressed, adversely impact the security of the PMA systems
and the data they contain. In particular, these PMAs had not always:

         Developed adequate security plans for each of the 12 systems we reviewed;

         Ensured that physical and cyber security controls were tested and operating as
         intended;
         Developed corrective action plans necessary to resolve weaknesses in a number
         of important control areas; and,
         Dcveloped contingency plans to ensure that systems could be recovered in the
         event of a significant outage.

Problems with the certification of thcsc systems - some of which are integral to
controlling electrical transmission to major portions of the Nation's power grids - were
attributable to the PMAs' failure to fully adopt a risk-bascd approach for implementing
security controls designed to satisfy Federal requirements. In addition, Southeastern,
Southwestern, and Western had not adequately emphasized the importance of a robust
cyber security program through involvement of "system and information owners."
Improvements are needed if PMA systems, specifically including those that support the
Nation's critical infrastructure, are to adequately protect against external attacks or insider
threats.

Each of the PMAs had recognized problems with their cyber risk management programs
and were taking action to address certain weaknesses. For instance, Southeastern
informed us that it is actively involving the system owners in updating security plans and
re-certifying its systems. In addition, Southwestern had implementcd a process for
identifying and tracking corrective actions needed to address cyber security weaknesses.
Furthermore, Western officials noted that they had completed the re-accreditation of four
systems and were in the process of implementing an automated tool to assist with C&A
activities.

These actions are positive steps that should help Southeastern, Southwestern, and
Western strengthen the protective measurcs applied to their critical information systems.
Additional action, however, is necessary, and our report contains several
recommendations that, if fully implemented, should I~elpthcm improve their overall
cyber security posture.

MANAGEMENT REACTION

Managemcnt at Western and Southeastern generally concurred with the report's overall
conclusions and rccomrnendations but offered clarifying remarks and disagreed with
certain conclusions. Southwcstcrn concurred with some of the report's recommendations
but did not believe certain conclusions and recommendations were applicable to its
organization. 'The differences as to the conclusion reached during the audit were
significant. We are hopeful that management will carefully review the facts disclosed
during the audit to resolve these matters. Management's comnlents arc more fully
discussed in the body of the report and are included in their entirety in Appendix 3.

Attachment
cc: Acting Deputy Secretary
    Administrator, Western Area Power Administration
    Administrator, Southeastern Power Administration
    Administrator, Southwestern Powcr Administration
    Chief of Staff
    Chief Information Officer
    Chief Health, Safety and Security Ofticer
REPORT ON CYBER SECURITY RISK MANAGEMENT
PRACTICES AT THE SOUTHEASTERN, SOUTHWESTERN, AND
WESTERN AREA POWER ADMINISTRATIONS

TABLE OF
CONTENTS

Protection of Information Svstems

Iletails of Finding ................................................................................................................ 1

Recommendations and Comments ...................................................................................... .7

Appendices

1.    Objective, Scope, and Methodology .......................................................................... 10

2.     Prior Reports. .............................................................................................................. 12

3.     Management Comments.. ................................................................... . I 3
Protection of Information Systems

Ensuring Security     The certification and accreditation (C&A) process is
Over Information      designed to ensure that information systems are secure
Systems               prior to beginning operation and that they remain so
                      throughout their lifecycle. The C&A process includes
                      formal steps to recognize and address risks, determine
                      whether system security controls are in place and operating
                      effectively, and ensure that changes to a system are
                      adequately tested and approved. The National Institute of
                      Standards and Technology (NIST) emphasizes the
                      importance of an effective C&A process when developing
                      and implementing information systems. Specifically, NIST
                      notes that "The successful completion of the security
                      certification and accreditation process provides agency
                      officials with the necessary confidence that the information
                      system has adequate security controls, that any
                      vulnerabilities in the system have been considered in the
                      risk-based decision to authorize processing, and that
                      appropriate plans and funds have been identified to correct
                      any deficiencies in the information system." Reporting
                      instructions published annually by the Office of
                      Management and Budget (OMB) for the Federal
                      Information Security Management Act require that Federal
                      organizations adhere to NIST cyber security related
                      directives/guidance.

                      Our review of the Southeastern, Southwestern, and Western
                      Area Power Administrations (Southeastern, Southwestern,
                      and Western, respectively) revealed that they had not fully
                      implemented Federal requirements for certifying and
                      accrediting a number of their systems. Specifically, we
                      noted that system security plans were missing descriptions
                      of key controls needed to protect information. In addition,
                      testing of security controls was often not conducted,
                      insufficient, or was not appropriately documented.
                      Corrective action plans were also not always developed to
                      address identified weaknesses in a timely manner and
                      contingency plans were not always complete and up-to-
                      date.

                                           Security Planning

                      We identified problems with the security planning process
                      at each of the three Power Marketing Administrations
                      (PMAs) reviewed. Specifically, Western allowed system
                      accreditations to expire for a number of its systems. While
                      systems should be re-accredited for operation at least once

________________________________________________________________
Page 1                                            Details of Finding
                      every three years to account for changes in technology and
                      related risks, Western had permitted accreditations to
                      expire for 6 of 15 systems. Western officials noted that
                      they had completed the re-accreditation of four of these
                      systems subsequent to our site visit, but efforts to re-
                      accredit the other two systems remained incomplete at the
                      time we completed our review.

                      We also found that security plans had not been fully
                      developed for various systems at each of the PMAs. For
                      instance, Southwestern officials stated that three sub-
                      systems approved as part of a larger general support system
                      had security requirements distinct from one another.
                      However, these specific controls were not adequately
                      described in the general support system security plan.
                      These elements were not included even though NIST
                      directs that additional security controls specific to minor
                      applications be documented in the system security plan for
                      the major system. In addition, the security plan for
                      Southeastern's Operations Center System did not contain
                      detailed descriptions of required security controls as
                      specified by NIST. At Western, the Desert Southwest
                      supervisory control and data acquisition (SCADA) system
                      security plan did not describe the controls planned or
                      implemented to address at least two important user
                      authentication areas. However, Western officials
                      recognized this problem and had taken action to modify the
                      security plan.

                                        Security Control Testing

                      We also identified problems with security control testing.
                      Specifically, certification testing – a detailed review of an
                      information system's security controls generally performed
                      every three years – was not adequately conducted, and
                      annual self-assessments of security controls were not
                      always completed. Without adequate control testing,
                      management lacked assurance that security controls were
                      operating as intended.

                      Although all three PMAs conducted control testing on their
                      major systems during system certification activities, testing
                      was sometimes inadequate or conclusions reached did not
                      reflect the actual status of the control environment. For
                      instance, a Southeastern official noted that an evaluation
                      conducted by the Department of Energy's (Department)
                      Office of Health, Safety and Security (HSS) constituted the
________________________________________________________________
Page 2                                            Details of Finding
                      certification activities for all its systems. However, an HSS
                      official stated that their reviews do not test all applicable
                      NIST controls and are not meant to be a substitute for
                      certification testing. In Southwestern's case, it relied only
                      on discussions of controls rather than physically testing
                      them to ensure their effectiveness. While this approach may
                      have been appropriate for low-risk systems, it did not
                      provide adequate assurance that security controls were
                      correctly implemented and operating as intended on
                      systems having higher risk ratings such as the financial and
                      SCADA systems. In Western's case, we identified
                      discrepancies between the certification agent's assessment
                      and security documentation for each of the seven systems
                      reviewed. Western explained that the discrepancies were
                      due to a timing lag between testing, updating, and
                      finalizing corresponding documentation. However, without
                      accurate information, Western may not have taken
                      necessary actions to correct weaknesses. Thus, responsible
                      officials at all three PMAs may have been prevented from
                      effectively taking actions to correct security control
                      weaknesses that could have been exposed by testing.

                      While NIST notes that an effective information security
                      program includes testing and evaluation of security controls
                      at least annually, Southeastern and Western had not
                      conducted thorough annual self-assessments on any of the
                      systems reviewed in years when certification testing had
                      not occurred. In Southeastern's case, although NIST
                      guidance was used to perform a self-assessment consisting
                      of a table-top exercise, the results of the assessment
                      contained no explanations as to how the assessment team
                      arrived at its conclusions or whether all necessary system
                      security controls had been examined. Western also did not
                      conduct annual self-assessments consistent with NIST
                      guidance. To compensate for this, Western has
                      implemented a continuous monitoring program that always
                      assessed the same subset of controls each year. However,
                      this process did not meet the OMB requirement that
                      "Agencies should develop an enterprise-wide strategy for
                      selecting subsets of their security controls to be monitored
                      on an ongoing basis to ensure all controls are assessed
                      during the three-year accreditation cycle." Notably,
                      Southwestern adequately tested security controls as part of
                      its self-assessment activities.




________________________________________________________________
Page 3                                            Details of Finding
                                           Corrective Actions

                      Although OMB requires that plans of action and milestones
                      (POA&M) be developed to assist in identifying, assessing,
                      prioritizing, and monitoring the progress of corrective
                      efforts for security weaknesses found in programs and
                      systems, Western and Southeastern had not developed
                      comprehensive plans to address weaknesses in a number of
                      control areas. Specifically, at Western, plans for certain
                      systems were missing weaknesses identified during the
                      certification process. Additionally, Southeastern's
                      corrective action plans did not contain any of 49 findings
                      identified through an independent third-party's risk
                      assessment, including five "high priority" findings. One
                      weakness identified by the Office of Inspector General
                      during a recent financial audit was also not tracked.

                      Even when high-level POA&Ms were developed, they
                      lacked essential information for monitoring the correction
                      of identified weaknesses. For five of seven systems'
                      POA&Ms reviewed at Western, information such as target
                      completion dates and responsible individuals were missing.
                      Moreover, although Western tracked certain corrective
                      actions, steps taken did not always correct the identified
                      weakness. For instance, weaknesses relevant to access
                      controls in Western's business decision support system
                      were determined to be corrected even though the actions
                      taken did not meet the security requirements set forth in the
                      system security plan. To its credit, we found that
                      Southwestern had implemented an effective corrective
                      action process to address its security weaknesses.

                                         Contingency Planning

                      Responsible officials had not fully considered interim
                      measures for recovering information technology services
                      following an emergency or system disruption. Specifically,
                      we found that contingency plans at Southeastern were
                      inadequate for use in the recovery from a system
                      disruption. For example, contingency plans for each of the
                      three systems reviewed did not discuss the need for backup
                      media and did not outline specific duties for each role as
                      defined in the plan. In addition, while officials at Western
                      commented that plans had been developed for certain
                      systems, they were unable to provide such documentation
                      during our site visit. Subsequent to our site visit, Western
                      provided documentation to support the existence of
________________________________________________________________
Page 4                                            Details of Finding
                        contingency plans for each of the systems reviewed.
                        However, the documentation provided indicated that three
                        contingency plans had not been updated for at least three
                        years and two plans were still in draft. In contrast,
                        Southwestern developed and tested contingency plans for
                        each of its information systems.

Security Approach and   Many of the weaknesses identified occurred because
System Owner            management had not fully adopted a risk-based approach
Involvement             for implementing security controls over its information
                        systems in accordance with Federal requirements. In
                        addition, inconsistent involvement from system and
                        information owners contributed to inadequate
                        documentation and testing of cyber security controls.

                                           Risk-Based Approach

                        Although required by NIST, Southeastern and Western
                        management did not emphasize the importance of utilizing
                        a risk-based, life-cycle approach to manage cyber security.
                        In particular, these two PMAs addressed security plans and
                        tested the controls only during the certification process,
                        which generally occurs only every three years. For
                        example, Southeastern's security plans had not been
                        updated since June 2006 and control testing was completed
                        only in years when certification testing occurred. In
                        Western's case, the certification agent developed and tested
                        security plans for systems while certification activities were
                        occurring, but system owners did not conduct assessments
                        throughout the accreditation period.

                        Additionally, responsible officials had not appropriately
                        prioritized the application of resources towards cyber
                        security activities. Specifically, Western attempted to
                        implement all NIST controls on each of its systems
                        separately, rather than identifying those security controls
                        common to multiple systems. This unnecessary and
                        duplicative effort contributed to many of the problems
                        identified at Western. In another instance, system owner
                        representatives at Western chose to dedicate resources to
                        identifying and testing certain controls to meet the
                        requirements of OMB Circular A-123 and North American
                        Electric Reliability Corporation critical infrastructure
                        protection standards. As a consequence, the certification
                        agent experienced difficulty in assisting system owners to
                        timely certify and accredit their systems.

________________________________________________________________
Page 5                                            Details of Finding
                              System and Information Owner Involvement

                       Although NIST directs that information and system owners
                       actively participate in the security planning process, an
                       official at Western noted that information owners were not
                       always involved in carrying out their responsibilities to
                       define and document security requirements for their
                       SCADA systems. We noted that Western management
                       assigned only two individuals to certify 15 systems
                       scattered over its 4 widely dispersed regional offices,
                       leaving them to conduct risk assessments, develop security
                       plans, and perform control testing to the extent practical.
                       Consequently, Western's certification testing was often
                       inadequate and nearly half of its system accreditations had
                       expired. However, as previously noted, Western had
                       recently made progress toward re-accrediting its systems.

                       In addition, Southeastern and Southwestern officials stated
                       that system and information owners could not participate in
                       the creation of system security plans or testing of security
                       controls because they did not understand the requirements
                       imposed by the Federal Information Security Management
                       Act. However, without the owners' involvement, cyber
                       security officials were forced to make assumptions about
                       what security controls, testing, and documentation would
                       meet the owners' information protection needs. For
                       example, security officials developed security plans that did
                       not adequately reflect the system control environment.
                       Southeastern noted that it had begun to actively involve the
                       system owners in updating security plans and re-certifying
                       its systems.

Information Security   Without improvements, critical information systems
and Assurance          maintained by Southeastern, Southwestern, and Western
                       could be disrupted. The need for a strong risk-management
                       program becomes apparent when one considers that the
                       number of cyber security incidents reported to the
                       Department's Computer Incident Advisory Capability is at
                       its highest level in three years. A further illustration of the
                       importance of a robust cyber security program is shown in
                       the results of a 2004 report regarding inappropriately
                       protected systems. The report noted that the number of
                       externally generated cyber incidents related to control
                       systems had increased significantly in past years. In
                       addition to these reported external attacks, these PMAs'
                       systems could also be impacted by inadvertent or malicious
                       acts of insiders, or disgruntled former employees. Without
________________________________________________________________
Page 6                                            Details of Finding
                     complete information, individuals responsible for
                     approving systems for operation may continue to do so
                     without fully understanding the risks associated with not
                     implementing certain security controls.

RECOMMENDATIONS      To address the issues identified in this report, we
                     recommend that the Southeastern, Southwestern, and
                     Western Administrators:

                        1. Establish a risk-based, life-cycle approach for
                           implementing information security programs that
                           allows management and information owners to
                           make informed and cost-effective decisions, to
                           include:

                                a. Fully developing security plans to describe
                                   all relevant controls and ensuring that
                                   systems are timely accredited for operation;
                                   and,

                                b. Verifying that necessary security controls
                                   are sufficiently tested for each system, to
                                   include conducting annual control
                                   assessments and ensuring that conclusions
                                   reached are supported by the test results.

                        2. Re-evaluate how to apply entity resources toward
                           information security program efforts, to include
                           actively engaging system and information owners
                           outside of the cyber security function in risk-based
                           decisions.

                     To further refine their risk-based approach, we also
                     recommend that the Southeastern and Western
                     Administrators:

                        3. Maintain complete plans of action and milestones,
                           to include updated corrective action plans for all
                           identified weaknesses; and,

                        4. Revise and update system contingency plans, as
                           appropriate.




________________________________________________________________
Page 7                              Recommendations and Comments
MANAGEMENT           Management at Western and Southeastern generally
REACTION AND         concurred with the report's overall conclusions and
AUDITOR COMMENTS     recommendations, but offered clarifying remarks and
                     disagreed with certain conclusions. Southwestern
                     concurred with some of the report's recommendations, but
                     did not believe certain conclusions and recommendations
                     were applicable to its organization.

                     Management's proposed and stated actions are generally
                     responsive to our recommendations. Based on
                     management's comments, we modified our report where
                     appropriate and updated the recommendations to better
                     reflect observations relevant to each PMA. We have also
                     made a number of other technical changes to our report to
                     address management's comments.

                     In reference to specific comments made by each of the
                     PMAs, management reaction and the auditor responses
                     follow. Management's comments are included in their
                     entirety in Appendix 3.

                                 Western Area Power Administration

                     Western generally concurred with the report's overall
                     conclusion and recommendations and indicated that it had
                     made progress toward correcting the issues identified in our
                     report. Although Western believed that its overall cyber
                     security program was effective, management commented
                     that it continues to strive to improve its cyber security
                     program and documentation processes.

                     Management's proposed and stated actions are responsive
                     to our recommendations. We continue to believe that the
                     implementation of a strong C&A process will enhance
                     Western's ability to protect its systems.

                                 Southeastern Power Administration

                     Southeastern generally agreed with the report's overall
                     conclusion and concurred with our recommendations.
                     Management commented that statements in our report
                     relating to critical infrastructure systems are not relevant to
                     Southeastern because it does not maintain transmission
                     lines and SCADAs. Management believed that its cyber
                     security program has made significant improvements in
                     recent years, including completion of an independent risk

________________________________________________________________
Page 8                                                 Comments
                     assessment and efforts to rewrite security documentation.
                     In addition, Southeastern acknowledged that it had not
                     properly documented control testing and did not maintain
                     adequate documentation to support the tracking of
                     corrective actions taken to address security weaknesses.

                     Management's proposed and stated actions are generally
                     responsive to our recommendations. While we agree that
                     Southeastern does not maintain systems supporting the
                     nation's critical infrastructure, our report discussed
                     weaknesses relating to the organization's other information
                     systems. We also agree that Southeastern has taken action
                     to improve its cyber security posture.

                                 Southwestern Power Administration

                     Southwestern disagreed with a number of conclusions and
                     recommendations included in the report. Although
                     Southwestern agreed that the effective use of the C&A
                     program is an important tool to measure the effectiveness
                     of its cyber security program, it did not believe that broad
                     conclusions could be drawn from the scope of our audit
                     work. Management commented that it could not concur
                     with a number of our recommendations because it was not
                     clear which recommendation applied directly to
                     Southwestern. In particular, management believed that
                     security controls were appropriately tested and that
                     POA&Ms were developed for all identified weaknesses.
                     Southwestern noted that it will improve communication
                     between system owners and cyber security officials.

                     Management's proposed and stated actions are generally
                     responsive to our recommendations. We updated the
                     recommendations to better reflect their applicability to each
                     PMA. We continue to believe that the conclusions reached
                     in our report are adequately supported by the audit work
                     conducted. In particular, improvements are needed to
                     ensure that security plans accurately reflect the controls to
                     be implemented for each information system. In addition,
                     as noted in our report, the process used by Southwestern to
                     test security controls was not always effective. Further, we
                     agree that Southwestern had implemented an effective
                     process for tracking identified security weaknesses.




________________________________________________________________
Page 9                                                 Comments
Appendix 1

OBJECTIVE              To determine whether the Southeastern, Southwestern, and
                       Western Area Power Administration (Southeastern,
                       Southwestern, and Western respectively) cyber security
                       programs adequately protected their data and information
                       systems.

SCOPE                  The audit was performed between October 2007 and August
                       2008 at the Western corporate offices. Information was also
                       obtained from the Southwestern and Southeastern Power
                       Administrations.

METHODOLOGY            To accomplish our objective, we:

                          •   Reviewed Federal regulations, Department of Energy
                              (Department) directives, critical infrastructure
                              protection standards, and guidance pertaining to
                              certification and accreditation of information systems;

                          •   Reviewed prior reports issued by the Office of
                              Inspector General, the Government Accountability
                              Office, and the Department's Office of Health, Safety
                              and Security;

                          •   Reviewed program-level policies relevant to security of
                              information systems;

                          •   Held discussions with program officials from each of
                              the Power Marketing Administrations (PMAs); and,

                          •   Selected 12 systems for review to determine whether
                              relevant cyber security requirements had been
                              implemented.

                       We conducted this performance audit in accordance with
                       generally accepted Government auditing standards. Those
                       standards require that we plan and perform the audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe the evidence obtained provides a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       The audit included tests of internal controls and compliance
                       with laws and regulations to the extent necessary to satisfy the
                       audit objective. Because our review was limited, it would not
                       necessarily have disclosed all internal control deficiencies that
                       may have existed at the time of our audit. We also assessed
                       performance measures in accordance with the Government

________________________________________________________________
Page 10                             Objective, Scope, and Methodology
Appendix 1 (continued)

                      Performance and Results Act of 1993 relevant to security
                      over information systems. We found that Southwestern
                      had established measures specific to this area, while the
                      other two PMAs had not. We did not rely on computer-
                      processed data to satisfy our audit objective. An exit
                      conference was held with Southeastern on November 12,
                      2008. Western and Southwestern waived an exit
                      conference.




________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 2

                                    PRIOR REPORTS

Office of Inspector General Reports
    • Special Report on Management Challenges at the Department of Energy (DOE/IG-
      0782, December 2007). The Office of Inspector General (OIG) identified seven
      significant management challenges facing the Department of Energy (Department),
      including cyber security. The report noted that although the Department had in place
      an aggressive effort to address existing weaknesses, we continued to identify
      deficiencies, including problems relevant to the Department's certification and
      accreditation (C&A) of unclassified information systems.
    • Evaluation Report on the Department's Unclassified Cyber Security Program – 2007
       (DOE/IG-0776, September 2007). The evaluation identified continued deficiencies
      in the Department's cyber security program that exposed its critical systems to an
      increased risk of compromise. In particular, weaknesses existed relevant to system
      C&A, contingency planning, access controls, configuration management, and change
      controls. Problems occurred, at least in part, because Department organizations had
      not always ensured that Federal requirements, Department policies, and cyber
      security controls were adequately implemented and conformed to Federal
      requirements, most notably by field organizations and facility contractors.
    • Audit Report on Certification and Accreditation of Unclassified Information Systems
       (DOE/IG-0752, January 2007). Many systems were not properly certified and
      accredited prior to becoming operational. For example, nine of 14 sites reviewed had
      not always properly categorized security levels or risk of damage to major or general
      support systems and information contained within, or had not adequately tested and
      evaluated security controls. In many instances, senior agency officials accredited
      systems although required documentation was inadequate or incomplete, such as
      incomplete inventories of software and hardware included within defined
      accreditation boundaries.
    • Audit Report on Management Controls over Selected Departmental Critical
       Monitoring and Control Systems (OAS-M-05-06, June 2005). The Department could
      not ensure that it could continue operations or quickly restore selected critical
      monitoring and control systems in the event of an emergency. Specifically,
      management had not fully assessed risks or taken adequate steps to mitigate the
      foreseeable risks confronting the six critical monitoring and control systems
      reviewed. This issue occurred because site management had not sufficiently
      considered and periodically evaluated the risk that critical monitoring and control
      systems would become inoperable and unable to be restored in a timely manner.
    • Audit Report on Power Marketing Administration Infrastructure Protection
      (OAS-B-03-01, April 2003). Western Area Power Administration (Western) and
      Southwestern Power Administration had not adequately assessed the vulnerabilities
      and risks for their critical assets. Vulnerability and risk assessments at Western were
      inadequate because management was primarily concerned about recovering from any
      disruption in operations, regardless of its source.

________________________________________________________________
Page 12                                               Prior Reports
Appendix 3




________________________________________________________________
Page 13                                      Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 14                                      Management Comments
 Appendix 3 (continued)




_________________________________________________________________
 Page 15                                          Management Comments
 Appendix 3 (continued)




_________________________________________________________________
 Page 16                                          Management Comments
 Appendix 3 (continued)




_________________________________________________________________
 Page 17                                          Management Comments
 Appendix 3 (continued)




_________________________________________________________________
 Page 18                                          Management Comments
                                                             IG Report No. DOE/IG-0805

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
